<html>
<title> - EXAMINING AMERICA'S NUCLEAR WASTE MANAGEMENT AND STORAGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        EXAMINING AMERICA'S NUCLEAR WASTE MANAGEMENT AND STORAGE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2017

                               __________

                           Serial No. 115-39

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-759 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a> 
                                 
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
              Ryan Hambleton,  Subcommittee Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                               ------                                

         Subcommittee on the Interior, Energy, and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky                (Vacancy)
Greg Gianforte, Montana
                           
                           
                           C O N T E N T S

                                                         
                                                                   Page
Hearing held on September 26, 2017...............................     1

                               WITNESSES

Mr. Anthony J. O'Donnell, Commissioner, Maryland Public Service 
  Commission, Chair, National Association of Regulatory Utility 
  Commissioners, Subcommittee on Nuclear Issues, Waste Disposal
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Chuck Smith, Council Member, Aiken County, South Carolina on 
  behalf of Energy Communities Alliance
    Oral Statement...............................................    15
Mr. David G. Victor, Chairman, San Onofre Nuclear Generating 
  Station, Community Engagement Panel, Professor, UC San Diego 
  School of Global Policy & Strategy
    Oral Statement...............................................    16
    Written Statement............................................    19
Dr. Edwin Lyman, Senior Scientist, Global Security Program, Union 
  of Concerned Scientists
    Oral Statement...............................................    27
    Written Statement............................................    29
Ms. Katie Tubb, Policy Analyst, Institute for Economic Freedom, 
  The Heritage Foundation
    Oral Statement...............................................    39
    Written Statement............................................    41

                                APPENDIX

Statement for the record by Senator Dean Heller of Nevada, 
  submitted by Chairman Farenthold...............................    64
The Costs of Inaction on Nuclear Waste Management, submitted by 
  Mr. Palmer.....................................................    68
Questions for the record for Mr. Anthony O'Donnell, submitted by 
  Chairman Farenthold............................................    71
Questions for the record for Mr. Chuck Smith, submitted by 
  Chairman Farenthold............................................    74
Questions for the record for Ms. Katie Tubb, submitted by 
  Chairman Farenthold............................................    78

 
        EXAMINING AMERICA'S NUCLEAR WASTE MANAGEMENT AND STORAGE

                              ----------                              


                      Tuesday, September 26, 2017

                  House of Representatives,
          Subcommittee on the Interior, Energy and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
Room 2154, Longworth House Office Building, Hon. Blake 
Farenthold [chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Gosar, Ross, Palmer, 
Comer, Gianforte, Raskin, and Gomez.
    Also Present: Representatives Issa and Clay.
    Mr. Farenthold. The Subcommittee on the Interior, Energy, 
and the Environment will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Without objection, we are going to allow Mr. Clay to sit 
in, a member of the full committee, to participate in this 
subcommittee. Without objection, so ordered.
    Good afternoon. Today, the Subcommittee on the Interior, 
Energy, and the Environment will examine America's nuclear 
waste management and storage.
    Over the last 40 years, the U.S. produced 76,000 metric 
tons of nuclear waste. That's enough volume to cover a football 
field 24 feet high. This waste is scattered around our cities 
at nuclear power plants and other facilities because our 
country can't get moving on a proper long-term plan for storage 
and disposal.
    Today, we'll explore our existing regulations for nuclear 
waste management and possible opportunities for improvement.
    The Nuclear Waste Policy Act, or NWPA, of 1982 directed the 
Department of Energy, aka the DOE, to develop a national 
repository for the permanent disposal of nuclear waste. Way 
back in 1987, the Yucca Mountain Nuclear Waste Repository in 
Nevada was designated as this site. The DOE submitted a 
licensing application for Yucca Mountain to the Nuclear 
Regulatory Commission in 2008. However, the Obama 
administration's disapproval of the proposal and a series of 
court cases significantly delayed the application's review. 
Today, the Nuclear Regulatory Commission has yet to approve the 
license for Yucca Mountain rendering the site unusable.
    To cover the cost of permanent removal, the NWPA 
established a Nuclear Waste Fund to collect fees under 
contractual obligation from nuclear power utilities in exchange 
for removal of nuclear waste. The DOE has, in fact, collected 
around $750 million annually, despite their inability to 
dispose the utility's nuclear waste. The DOE now owes roughly 
$29 billion in liabilities since they failed to fulfill their 
contracts.
    With nearly 2,000 metric tons of nuclear waste produced 
each year, the need for a long-term storage solution is 
becoming crucial. In my home State of Texas, there's currently 
a site in Andrews County used for low-level radioactive waste. 
A licensing application to upgrade the sight to an interim 
nuclear repository was submitted to the NRC. But similar to 
Yucca Mountain, the application faced numerous roadblocks 
ultimately stalling, in their view, process.
    Due to the barriers faced in establishing a national 
repository, nuclear power of utilities often store nuclear 
waste in reactor sites. This is costly and unsustainable over 
the longterm and places significant burdens on the communities 
that house them. The Federal Government has a designated site 
and the resources necessary to make it operational, yet has 
struggled every step of the way to get the approval required to 
move forward. It's been 35 years since the passage of the 
Nuclear Waste Policy Act, and we have hardly anything to show 
in that time period, despite billions of dollars spent. We have 
to find a way to move past the gridlock.
    I look forward to hearing ideas and suggestions from our 
panel, and am hopeful the committee can create solutions to 
improve the management and storage of America's nuclear waste.
    At this point, I will yield 5 minutes to Mr. Raskin, the 
acting ranking member, as Ms. Plaskett is detained in the U.S. 
Virgin Islands for obvious reasons.
    Mr. Raskin. Mr. Chairman, thank you for holding this 
important hearing. And welcome to all of our fine witnesses, 
including my former colleague from the Maryland General 
Assembly, Mr. O'Donnell. It's really good to see you.
    And I am serving in the place of our distinguished ranking 
member, my friend and former law student, Ms. Plaskett, who is 
attending to her constituents in the U.S. Virgin Islands who 
are struggling to recover from the devastating hurricane and 
all the flood damage. They are in our thoughts, and prayers are 
with her and with her constituents.
    I greatly appreciate the opportunity to discuss an issue on 
the minds of a lot of Americans. Nuclear waste storage is a 
pressing nationwide concern that requires a nationwide 
solution. There are currently over 700,000 metric tons of spent 
nuclear fuel in our country, an additional 13,000 metric tons 
from defense-related activities. This radioactive waste is 
currently being stored at dozens of deteriorating nuclear 
storage sites across America. And I believe we can all agree 
that this is not a viable or safe long-term solution.
    I believe we can also agree that our government owes the 
American people an effective plan to address the nuclear waste 
storage problem. We owe the American people a plan that allows 
for nuclear waste to be stored securely in the manner that does 
not poison the environment and that presents no public health 
and safety concerns for local communities.
    Questions about the soundness and safety of our current 
storage regime and facilities are not new. In recent years, 
we've seen several disturbing incidents that have brought into 
question our ability to safely store this dangerous material in 
communities across the land.
    Internationally, the nuclear disaster at the Fukushima 
plant caused by an earthquake and a tsunami is still a vivid 
and serious reminder of the dangers of nuclear power and 
escaped nuclear radiation. And it serves as a warning to all of 
us around the world of what can happen if we don't keep safety 
at the very forefront of our concerns.
    So it's troubling to me that the Trump administration is 
moving swiftly to advance the Yucca Mountain facility. The 
President's proposed budget provides for $120 million to 
restart the licensing for this controversial plan. There are 
significant reasons why the repository at Yucca Mountain site 
originally selected 30 years ago has not yet been built. Yucca 
Mountain is seismically active and faces the possibility of 
continued and increased volcanic activity. Moreover, the 
facility comes with a known risk of radioactive waste leaking 
into the groundwater and contaminating the drinking water of 
nearby communities. Furthermore, the transportation of nuclear 
waste to Yucca Mountain would take it through 44 States and the 
District of Columbia, well over two-thirds of the country, nor 
have we fully considered the national security risks involved 
in transporting and storing this nuclear waste.
    These significant concerns cannot be swept under the rug in 
a mad dash to get Yucca Mountain licensed. All of these 
environmental, public health, safety, transportation, and 
national security questions must be thoroughly answered before 
we determine that Yucca Mountain is the best site for nuclear 
waste storage.
    There are so many difficulties involved in using Yucca 
Mountain to store nuclear waste that the Atomic Safety and 
Licensing Board Panel is considering approximately 300 
different contingencies. It seems clear we should be 
considering alternative sites to act as a permanent repository. 
Looking forward whether we are discussing short- or long-term 
solutions, we must continue to make the public safety a 
paramount priority, and this means carefully considering 
environmental implications of all the sites.
    As the people of Texas, Florida, Puerto Rico, the Virgin 
Islands desperately try to recover from record-force hurricanes 
and flooding damage, we must take stock of the fact that 
climate change is dramatically increasing the ferocity and the 
perils of natural disasters. No plan to safely dispose of and 
store nuclear waste is remotely complete if it does not take 
into account changes in weather patterns. It is also imperative 
that the Federal Government works with State and local 
governments to develop and implement effective solutions going 
forward.
    I look forward to hearing today from people who are 
tackling these important issues.
    Thank you very much, Mr. Chairman.
    Mr. Farenthold. Thank you.
    Without objection, other members will have 3 legislative 
days to submit an opening statement. Additionally, without 
objection, Senator Dean Heller of Nevada has also submitted 
testimony. And without objection, we'll add that to the record 
as well.
    Mr. Farenthold. Now I'd like to introduce our witnesses.
    We have Mr. Anthony O'Donnell, commissioner of the Maryland 
Public Service Commission, and chair of the Subcommittee on 
Nuclear Issues - Waste Disposal at the National Association of 
Regulatory Utility Commissioners. We have Mr. Chuck Smith, a 
councilman in Aiken County, South Carolina, and chairman of the 
Energy Community Alliance. We have Mr. David Victor, professor 
of international relations and director of the Laboratory on 
International Law and Regulations at UC San Diego, as well as 
chairman of the Community Engagement Panel at San Onofre 
Nuclear Generating Station. We have Dr. Edwin Lyman, senior 
scientist of--at the Union of Concerned Scientists Global 
Security Program. And Ms. Katie Tubb, policy analyst at the 
Heritage Foundation, Center for International Trade and 
Economics.
    We welcome you all.
    Pursuant to committee rules, all witnesses will be sworn 
before their testimony.
    Would you please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Let the record reflect all witnesses answered in the 
affirmative. And you all may be seated.
    We all have your preprovided testimony. So in order to 
allow time for discussions and questions, I'd request you limit 
your time for your verbal testimony to 5 minutes. The clock in 
front of you shows the time remaining. It will turn yellow when 
you have 30 seconds remaining and turn red when your time's up. 
If you go way over, I'll start tapping the gavel to--in case 
you missed the clock.
    So with that, we'll begin with Mr. O'Donnell. You're 
recognized for 5 minutes, sir.

                      WITNESS TESTIMONIES

               TESTIMONY OF ANTHONY J. O'DONNELL

    Mr. O'Donnell. Thank you, Mr. Chairman.
    Good afternoon, Chairman Farenthold and Acting Ranking 
Member Raskin and other members of the Subcommittee on the 
Interior, Energy, and Environment. Thank you for the 
opportunity to testify today on the lack of progress on nuclear 
waste disposal and its effect on ratepayers.
    My name is Tony O'Donnell, and I'm a commissioner on the 
Maryland Public Service Commission. I also serve as chairman of 
the National Association of Regulatory Utility Commissioners, 
NARUC, Subcommittee on Nuclear Issues - Waste Disposal. Thank 
you for holding this hearing.
    State economic utility regulators are responsible for 
ensuring the safe, reliable, and affordable delivery of 
essential electric utility services in every State across this 
country. The success of the Federal nuclear waste management 
program funded by the consumers of electricity generated from 
the Nation's nuclear power plants is necessarily of keen 
interest. Both NARUC and its member commissions have dedicated 
a tremendous amount of time and resources to ensure that 
electricity consumers receive the services they have paid for.
    State regulators agree that users of electricity for 
nuclear power plants should pay for the Federal--for the 
Federal nuclear waste management and disposal program, and the 
consumers have paid generously into this fund.
    Since 1982, more than $40 billion in direct payments and 
interest have been paid into the U.S. Nuclear Waste Fund. In 
fact, the $40-plus billion the consumers have contributed to 
the fund is only part of the entire amount they have spent on 
nuclear waste.
    First, consumers have paid for the original waste storage 
of facilities through the rates. Secondly, they paid into the 
Nuclear Waste Fund, as I just mentioned. Third, consumers paid 
to rerack or consolidate used fuel pools through the rates 
because the Federal Government failed to remove the waste by 
the statutory deadline. Fourth, they had to pay for onsite, 
out-of-pool dry cask storage through rates, again due to 
Federal failure. Finally, consumers paid a fifth time, through 
taxes paid for the Judgment Fund disbursements to cover damages 
caused by the failure of the Federal nuclear waste program.
    With respect to the judgement fund, taxpayers from every 
State, even those whose utilities have no stake in nuclear-
generated electricity, continue to fund court-awarded damages 
from the Department of Justice Judgment Fund for DOE's partial 
breach of its contracts with electric companies that required 
DOE to remove the used nuclear fuel.
    According to a September 2014 DOE audit report, $4.5 
billion in damages have already been paid as a result of the 
Federal Government inaction. DOE estimates the total liability 
for the Federal Government will be about $27 billion, subject 
to check, maybe it's $29 billion. But that estimate includes 
the unrealistic assumption that the Department can begin to 
accept used nuclear fuel by 2021. Industry estimates almost 
double that projection. Even former President Obama's Blue 
Ribbon Commission estimated that every year of delay in 
accepting used nuclear fuel will increase this liability by 
approximately $500 million. Yet for those billions, so far 
ratepayers in the country have nothing to show for it.
    The Federal Government missed its statutorily mandated 
deadline to start accepting nuclear mandate--nuclear waste in 
1998. In the 1990s and early 2000s, at least the program had 
shown progress, notwithstanding the missed deadline.
    However, since that time, efforts to block funding for a 
geological disposal of nuclear waste at Yucca Mountain as well 
as the U.S. Department of Energy's unlawful refusal to support 
the project's licensing application has kept the country in the 
exact same situation we occupied 30 years ago when Congress 
decided--I reiterate, Congress decided--that Yucca Mountain 
should be the first site considered for the United States 
permanent repository.
    The United States needs and--needs and consumers have paid 
for a permanent storage solution, and nothing less. To put it 
bluntly, the States and localities have the Federal 
Government's waste, and the Federal Government has our money.
    Thank you again, Mr. Chairman, for the opportunity to be 
part of this critical discussion.
    [Prepared statement of Mr. O'Donnell follows]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much.
    Mr. Smith.

                    TESTIMONY OF CHUCK SMITH

    Mr. Smith. Chairman Farenthold and members of----
    Mr. Farenthold. Could you turn your microphone on, please, 
sir?
    Mr. Smith. Thank you for inviting me to testify today 
ensuring that the perspective of the local communities that 
host the government's defense nuclear waste facilities is 
represented. I am Chuck Smith, council member of Aiken County, 
South Carolina, board member of the SRS Community Reuse 
Organization, and chairman of Energy Communities Alliance.
    Our communities have long played a key role supporting the 
Nation's national security efforts. Indulge me, please. I have 
two canisters of high-level waste from different locations. 
Scientists will tell you that both are radiologically the same 
material, yet it costs $10 billion to manage this material and 
$100 billion to manage this material. Why? Because DOE 
regulations make no sense.
    I'd like to discuss defense high-level waste in an 
alternative path forward that can potentially reduce current 
cost estimates for addressing nuclear waste by upwards of $40 
billion.
    DOE produced defense nuclear waste through its reprocessing 
programs carried out as a part of the Manhattan Project and 
during the Cold War. DOE has 332 underground tanks used to 
process and store liquid high-level waste. The large tanks sit 
at three locations: Hanford, Washington; the Idaho National 
Laboratory; and in my State, Savannah River Site.
    The defense high-level waste is ultimately destined for 
disposal at Yucca Mountain. ECA has long supported moving 
forward with the Yucca Mountain licensing process. A high-level 
waste repository is and remains essential. ECA also supports 
consolidated interim storage, but it must exist alongside a 
permanent solution and not instead of it.
    As the ``kick the can down the road approach'' continues, I 
must remind you that our communities are already de facto 
interim storage sites. In addition, DOE and nuclear power 
producers are already incurring large costs paid for by 
taxpayers in your communities. GAO reported this year that 
DOE's environmental liability has doubled from a low of $176 
billion in 1997 to an estimate of $372 billion in 2016. DOE has 
paid $6.1 billion in damages. That breaks down to 800 million 
annually, about $2.5 million per day. The cost of inaction is 
high.
    So what can we do? ECA believes one option is clarifying 
the way nuclear waste is classified. Our country's radioactive 
waste clarification system currently relies primarily on point 
of origin rather than consumption or the specific hazards posed 
by its disposal. This approach does not make sense. Some 
defense high-level waste could technically qualify as 
transuranic waste, if based on its radioactive content. Only 
the U.S. classifies this nuclear waste this way.
    Just this month, ECA released a white paper outlining five 
near-term actions we believe can help DOE cut years of 
operation: reduce the size and duration of storage facilities 
needed before a high-level waste repository is available, 
accelerate waste tank retrieval and closures, and, as I 
mentioned earlier, realize savings of more than 40 billion.
    Our first two recommendations reflect a two-pronged 
approach. First, DOE should revise its order 435.1 to clarify 
that waste will be managed and disposed of according to 
characteristics rather than origin. DOE already has the 
authority to do this under the Atomic Energy Act. Congress 
should eventually provide statutory clarification to codify any 
clarification and reduce the chances it will shift over time 
along with politics and new administrations. However, any 
legislative language should support DOE's efforts and not get 
ahead of them. My community has started to develop its own 
legislative language, but we need to ensure that resources are 
available for local and State representatives around each 
impacted site to engage with their constituents, State 
policymakers, and congressional delegations to provide 
education and build support.
    Our next two recommendations deal with WIPP. DOE must begin 
working with the State of New Mexico on a permanent 
modification--on a permanent modification for WIPP to allow 
some of the tank waste currently classified as high-level waste 
to go to WIPP if it meets waste-acceptance criteria. This could 
allow 2,300 canisters of waste at Savannah River that are 
already destined to safely go to WIPP rather than sit onsite 
waiting for a high-level repository to be operational. Congress 
and DOE should provide full funding for WIPP so the full range 
of disposal capabilities can be resumed and capacity ultimately 
increased.
    And finally, DOE should begin to work on pilot projects and 
policy options to better understand alternative approaches. 
This includes considering how best to utilize private 
facilities such as WCS in Texas. Again, I caution it is 
imperative that DOE enter into discussions as early as possible 
with host communities and States to ensure there's a full 
understanding of the risk and benefits of any proposal. 
Impacted stakeholders must have the resources and opportunities 
necessary to participate in planning and provide feedback into 
policymaking process.
    For many communities, trust in DOE has eroded over time, 
and transparency is paramount to our community's ability to 
support DOE decisions. Clarifying waste definition is a large 
departure from current policy, but current policy has not 
served us well. There are safe options, and the Federal 
Government must seriously consider them.
    In closing, I appreciate the opportunity to appear before 
you today. I did bring copies of our report. ECA calls on you 
to support our communities and the country to move forward 
using science-based, not politically science-based, decision. 
We need to stop spending millions of taxpayers' dollars or 
fines rather than progress. It just makes sense.
    Mr. Farenthold. Thank you very much, sir.
    Mr. Victor, you're up for 5 minutes.

                  TESTIMONY OF DAVID G. VICTOR

    Mr. Victor. Thank you very much, Chairman Farenthold, 
Acting Ranking Member Raskin, Representative Gomez, members of 
the subcommittee. My name is David Victor. I'm a professor at 
UC San Diego. I'm also a chairman of the Community Engagement 
Panel at San Onofre. This is a panel set up by Southern 
California Edison, the operator of the facility, to help 
steward the process of decommissioning of the San Onofre site, 
which is the largest commercial reactor site to be 
decommissioned to date.
    I've submitted in advance my written testimony. I want to 
just focus on three remarks in the 5 minutes that I have here 
today, remarks based on what I'm hearing from the communities 
on the front lines around these plants.
    The first comment is that the problem is now well-known. 
The Nation needs a solution. We do not have a solution to the 
long-term storage of spent nuclear fuel. But the situation 
today is radically different from what it was 10 years ago, and 
it's going to get worse quickly.
    Today, there are 17 reactors at 14 sites on 11 States that 
are in the various stages of decommissioning, including the San 
Onofre plant. In the future, there will be more reactors in a 
similar situation.
    At these sites, the visibility and the problems associated 
with the lack of a solution to the spent nuclear fuel problem 
are much more visible because they're an operating site, 
there's always fuel onsite, and the reactor core and pools 
onsite at cask storage. And a decommissioned site situation is 
totally different. And the deal that the communities expect is 
that when the plants are removed and the benefits from that 
plant are removed, that the spent fuel will be removed as well. 
And that deal is not being fulfilled.
    The second of the three comments I'd like to make concerns 
Yucca Mountain. I understand that a lot of the politics around 
this issue in Washington are focused on Yucca Mountain. What 
I'm hearing from people on the front lines is very different. 
There's attention to Yucca Mountain, but there's much more 
attention to consolidated interim storage, or monitorable and 
retrievable storage, such as the sites mentioned in west Texas, 
another site in eastern New Mexico near the WIPP facility, and 
perhaps other sites in the future.
    Over the last 3 years, our panel has spent a lot of time on 
this issue. And what we have learned is that it's important to 
view consolidated interim storage as a complement to Yucca 
Mountain. I understand that politically they can be 
complements, but the role of these interim facilities and 
helping get spent fuel out of these communities quickly is 
vital, because even with a restart of Yucca Mountain, there are 
going to be many delays. It's going to take a long time. And 
interim storage is a much more rapid response option.
    In my testimony, I cite some of the work that's been done 
on the economics. Interim storage, in addition to help save 
money when developed in tandem with Yucca Mountain or other 
permanent storage facilities, it also gives us more options as 
a country, so that if one option doesn't work or if there are 
political troubles, the entire country is not held up by those 
difficulties as we have seen in the debate over the last few 
decades.
    We have spent more time on this issue around the San Onofre 
communities than any other topic that our panel looks at. And 
the number one ask from those communities is to help accelerate 
an overall strategy that involves permanent repositories as 
well as consolidated interim storage.
    The third and last comment I'd like to make concerns all 
the progress that has been made in Washington and, to some 
degree, in the arms of the Federal Government around the 
possibilities of restarting Yucca and around making 
consolidated storage a reality. It's really striking how much 
has happened in the last few years and how much in particular 
this body has done on the legislative front. Maybe not quite as 
much progress over in the Senate yet, but we can hope.
    I think the bill that's working its way through here is a 
big step forward, but it's a first step and additional work is 
needed. And I'd like to highlight two areas where we have 
learned about additional work that will be essential.
    One of those areas concerns the order with which spent fuel 
is removed from sites and sent to an interim storage facility 
or a permanent repository. Current procedures are ambiguous 
about this but seem to envision a scenario where the oldest 
fuel will be taken first from lots of different sites around 
the country. What we hear from not just our communities, but 
other communities around decommissioned nuclear sites is they 
would like those fuels to be moved first, because in 
decommissioned sites, there is especially no logic for 
continued onsite presence of spent nuclear fuel.
    And the other topic that needs more work is transportation. 
And current appropriations have some money needed for 
developing the railcar systems to move spent fuel. More work is 
needed on that front so we can develop a fleet of railcars, so 
that when real options appear, there are ways to get the fuel 
out of sites like San Onofre to permanent facilities.
    I thank you very much for your interest and attention to 
these issues. We in the communities around plants such as San 
Onofre are living this on a daily basis, and we are encouraged 
by the potential progress on solutions. Thank you.
    [Prepared statement of Mr. Victor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. Victor.
    Dr. Lyman, you've got your 5 minutes, sir.

                    TESTIMONY OF EDWIN LYMAN

    Mr. Lyman. Thank you, Chairman Farenthold and Acting 
Ranking Member Raskin and the other distinguished members of 
the subcommittee. On behalf of the Union of Concerned 
Scientists, I would like to thank you for the opportunity to 
testify here today.
    And before I begin, I would just like to extend our 
sympathies and best wishes for a swift and full recovery to the 
people of Texas, the U.S. Virgin Islands, and all the other 
areas that have been so deeply affected by Harvey, Irma, and 
Maria.
    UCS has more than half a million supporters united by a 
central belief we need sound scientific analysis to create a 
healthy, safe, and sustainable future. We are neither pro nor 
anti nuclear power, but we have served as a nuclear power 
safety and security watchdog for nearly 50 years. In this 
regard, it is critically important that spent fuel be managed 
safely and protected from terrorist attack until it can be 
buried in a geological repository. But a sustainable nuclear 
waste disposal strategy must have broad public acceptance at 
local, State, and national levels.
    The witnesses today were asked to focus on the needs and 
challenges of communities currently holding nuclear waste. 
While we do agree these communities must have a major stake in 
the process, a sound nuclear waste policy should also reflect 
national priorities and look to protect future generations as 
well as ours. The problems that actions may appear to benefit 
some communities in the short term can penalize others and may 
even be harmful to the long-term interests of the U.S. as a 
whole.
    To be clear, in our view, spent nuclear fuel can be stored 
safely and securely at reactors and dry cask facilities for 
many decades, provided that the Nuclear Regulatory Commission, 
or NRC, conducts rigorous oversight, which has not been the 
case to date in all respects.
    Nevertheless, risk acceptance varies from one community to 
another, and it is understandable why some representatives 
would support legislation to facilitate moving spent fuel in 
their districts out as soon as possible. This is why Congress 
needs to come together to develop a new and science-based 
national nuclear waste management policy in order to allocate 
risks and benefits as fairly as possible.
    This policy should include a process to establish and 
maintain political momentum for development of repositories; a 
process for repository site selection that is consent-based, 
fair, and technically sound; requirements that spent fuel be 
managed safely and securely at reactor sites until a repository 
becomes available; and requirements for safe and secure 
shipment of spent fuel from reactor sites to repository. 
Current laws and regulations do not adequately address any of 
these issues.
    Unfortunately, the one game in town right now, which is 
H.R. 3053, has a number of flaws and avoids many of these 
questions, or exacerbates them. We expressed our concerns about 
it in the draft version earlier this year in testimony. And now 
if there's a version that's been reported out, it's a little 
improved. In some respects it's even worse.
    So I'd like to focus on the linkage between siting 
monitored retrievable storage facilities and a geologic 
repository. The current version of H.R. 3053 weakens that 
linkage; in fact, would allow DOE to immediately contract with 
a private company to spend public funds on developing a 
monitored retrievable storage facility up until the step of 
actually operating it. So they could pay to site, do all the 
reviews, and build a facility, but they can't move fuel there 
until NRC makes a decision whether or not to authorize 
construction of a repository at Yucca Mountain.
    Now, we can see what the problems with this are. Even with 
that latter condition, we think this would undermine the 
geologic repository program, because of the way we read the 
bill, even if the NRC were to deny a construction authorization 
for Yucca Mountain, DOE would be allowed to keep building MRS 
facilities indefinitely, each one capped at 10,000 tons, but 
could build as many as they wanted. So there would be no 
impetus for actually going forward with the geological 
repository. And that, we think, would be a bad outcome 
primarily because of the security concern of leaving spent fuel 
aboveground indefinitely.
    Over time, spent fuel in aboveground storage is not only a 
risk--poses a risk for sabotage but eventually will become a 
risk for nuclear terrorism because of the plutonium contained 
in the spent fuel. That spent fuel becomes more vulnerable over 
time because of the decay of the radioactive barrier that 
protects it. So we do believe there need to be mechanisms to 
not provide an escape valve that would allow DOE to abandon a 
search for geologic repositories.
    In the meantime, work does need to be done on increasing 
safety and security of spent fuel at reactor sites. That would 
include expediting the transfer of spent fuel from pools to dry 
casks and also upgrading the security requirements for dry 
cask, because they are also vulnerable.
    And finally, transportation is the weakest link in the 
chain. We agree with the other speakers that this must get more 
attention than it has in the past to facilitate safe and secure 
transport of spent fuel in that final management system.
    So the U.S. can afford to allow the NRC to take its time 
reviewing Yucca Mountain because there is a window of safety. 
But there is no urgent need to rush forward to a less-than-
optimal approach. And so Congress should take the time to get 
it right.
    Thank you, and I apologize for exceeding my time.
    [Prepared statement of Mr. Lyman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Oh, that's all right. No, you didn't go too 
badly. We had somebody this morning use 5 extra minutes.
    Ms. Tubb, you're up. And please don't use 5 extra minutes.

                    TESTIMONY OF KATIE TUBB

    Ms. Tubb. My name is Katie Tubb, and I'm a policy analyst 
for energy and environment issues at the Heritage Foundation. 
And the views I express today are my own. Thank you for the 
opportunity to testify before you today and for your interest 
in examining nuclear waste management issues.
    Rather than a problem, I believe nuclear waste management 
is an opportunity for growth and innovation in the nuclear 
industry, if we can get policy right. As requested, I hope to 
briefly cover how we got to the current dysfunction, the 
consequences of stalled action, particularly to taxpayers, and 
where we are on the issue today.
    According to the Nuclear Waste Policy Act of 1982, as 
amended, the Department of Energy entered into contracts with 
commercial nuclear power companies to collect and store nuclear 
waste at a long-term repository at Yucca Mountain. It was 
required to begin collecting waste by 1998.
    In 2008, the DOE applied for a license with the NRC to 
build a facility at Yucca Mountain. But shortly thereafter, and 
lacking any technical or scientific justification, the Obama 
administration unilaterally walked away from the Yucca Mountain 
license and declared it not a workable solution.
    Following a series of court cases, the NRC was ordered to 
review the Yucca Mountain application until funds were 
exhausted, and the DOE was required to stop collection of the 
nuclear waste fee. These pivotal court decisions, in essence, 
bring matters back to where they were in 2008.
    Stalled action has had costs, and a voice too often left 
out is that of the taxpayer. Because the DOE has failed to 
collect nuclear waste as contractually obligated, it has been 
found in partial breach of its contracts with nuclear power 
companies. Over $6 billion in settlements have been paid to 
nuclear utilities from the Treasury Department's Judgment Fund. 
And put simply, this means the DOE budget takes no hit for its 
negligence. The nuclear industry is made whole through the 
Judgment Fund. Taxpayers cover the bill.
    The DOE projects liability to be $24.7 billion, based on 
DOE's 2016 December financial report. But this is misleading 
because it assumes construction of a pilot interim facility in 
2021 based on the Obama administration's original plan. The 
nuclear industry estimates liability of upwards of $50 billion.
    Another expense to taxpayers is a result of how the Nuclear 
Waste Fund is accounted for in Federal budgets. As mentioned, 
the DOE stopped collecting the nuclear waste fee in May 2014 as 
the courts directed. However, CBO continues to assume the 
Federal Government is collecting $385 million simply because 
the DOE could continue--or reinstate the fee. OMB has also used 
this budget tool. In other words, the Nuclear Waste Fund has 
been used to disguise the cost of budgeting choices, 
perpetuating the myth that Congress is fully paying for new 
spending.
    The current and future nuclear industry faces considerable 
uncertainty after the past decade of political mismanagement. 
Despite a new administration willing to follow the law, 
Congress has not appropriated for the Nuclear Waste Fund since 
2010. American is at a crossroads where Congress has the 
opportunity to set nuclear waste management on track. There 
have been notable legislative efforts; however, none have 
addressed the underlying issues with the current system.
    First, responsibility for nuclear waste management ought to 
belong with nuclear power operators as an aspect of commercial 
nuclear power generation in the same way that other industries 
such as healthcare, mining, manufacturing, farming all take 
care of their own waste streams.
    If waste management were a dynamic part of the utility's 
bottom line, the nuclear industry would naturally be interested 
not only in efficient nuclear waste disposal, but also cost-
effective predisposal decisions such as interim storage 
options, fuel types, and reactor technologies.
    When nuclear power companies are responsible for waste 
management, regulatory agencies can been seen exactly as that: 
Disinterested regulatory agencies interested in protecting 
health and safety. As both regulatory and repository operator, 
the government appears to have a bias, whether that's real or 
just perceived.
    Further, a potential host community can then be a truly 
equal partner in negotiations with the industry, rather than an 
inferior party submitting to the Federal Government in a David-
Goliath battle to locate a repository.
    Secondly, nuclear waste policy reforms should replace the 
previous flat nuclear waste fee with accurate pricing. Prices 
are critical to any functional and efficient marketplace and 
provide suppliers and customers with data to determine the 
attractiveness of a product and service. Prices also give 
potential competitors the information they need to introduce 
new alternatives.
    Nuclear waste management is not an inherent government 
activity. It is primarily a business activity related to 
commercial production of electricity. Reform must work off of 
these two principles of industry responsibility and market 
prices. It also must recognize that a long-term geologic 
repository is needed and that in order to progress with the 
Yucca Mountain, the State of Nevada must have more say in the 
matter.
    I think a possible way forward is to treat existing waste 
under the political realities of the Nuclear Waste Policy Act 
and to approach new ways under a market-based policy. At the 
very least, Congress needs to provide enough funding for the 
DOE and NRC to complete the license review of Yucca Mountain. 
Finishing the review merely brings all the information together 
for Congress, Nevada, and the industry to make prudent 
decisions about the next steps.
    Thank you for giving me 38 extra seconds.
    [Prepared statement of Ms. Tubb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. You are very welcome.
    We'll now proceed with questions. Since I will be staying 
through the whole hearing, I'll reserve my questions to bat 
cleanup. So we'll start first with the gentleman from Kentucky.
    Mr. Comer. Thank you, Mr. Chairman.
    It's my understanding that taxpayers across the country 
have already paid over $6 billion in damages because the 
Federal Government has failed to honor its commitment to remove 
spent fuel from nuclear reactors around the country. 
Additionally, it's estimated that the final tab that taxpayers 
are responsible for could rise to $30 billion.
    What immediate actions can be taken by this Congress to get 
a feasible used fuel program operating so that the taxpayer 
liability can be limited and hopefully eliminated going 
forward? It's up to anybody.
    Mr. O'Donnell. I'll take an open crack at it, Congressman. 
I appreciate the question.
    I think the first thing, from a regulatory standpoint and a 
State regulator, is there's been an application made to the 
Nuclear Regulatory Commission. And the first thing this 
Congress can do is to fund that application going forward, 
either through the Department of Energy reasserting itself as 
the applicant, which it hasn't been doing. So they'll need some 
money to do that. The President's submittal contains money. So 
we need to get that funding stream going, as well as the NRC 
needs to be fully complemented and ready to take this 
application back up.
    As a State regulator, if we get an application, Mr. 
Chairman, for somebody who wants to do something under our 
purview, we can't just suspend that in contravening our own 
law. We have to run that to ground, and we have to get an 
answer to that application. And so one way or another, we need 
that answer. That's where the scientific-based solutions will 
occur. And I think that's what this Congress can do 
immediately, is get some funding going and get these programs 
stood back up so that we can continue down the path of getting 
the NRC doing the scientific evaluation of the application.
    Mr. Comer. Okay.
    Mr. Victor?
    Mr. Victor. I'd agree with what Mr. O'Donnell said. But let 
me add the vital importance of interim storage. I recognize 
Representative Issa, he and the congressional delegation in 
California spent a lot of time with us around this.
    We can begin the process of restarting Yucca Mountain in a 
permanent repository. And I understand the imperative of that. 
But there's also a very large cost savings that comes from not 
storing spent fuel at lots of sites all around the country, but 
at a smaller number of sites. And so for people who are 
concerned about the cost of all this, in addition to a variety 
of other objectives here, interim storage is a vital role to 
play here, as does a smart--Dr. Lyman pointed to a smart 
transportation program so that we can efficiently, once we have 
places to send it, and ideally as many places as possible so we 
have competition, an efficient transportation system so that--
which is really a DOE responsibility in the end as well as 
State and local planning--an efficient transportation system so 
that we can move as many of these shipments to those facilities 
as possible.
    One last comment here briefly, which is we get regular 
updates on the status of all the canisters at San Onofre. And 
what's striking to me is that there are dozens of canisters 
that are already ready to ship. And in the next few years, 
there will be dozens more. And so we and many other sites are 
ready to go as soon as there's a place to send it.
    Mr. Comer. Okay. Thank you.
    Mr. O'Donnell, it's great to have you here today in your 
role as chairman of the National Association of Regulatory 
Utility Commissioner's, subcommittee on nuclear waste disposal. 
I was made aware that you previously worked at the Calvert 
Cliffs Nuclear Power Plant just down the road in Calvert 
County, Maryland. So you are very familiar with the issues 
we're here to address today.
    It's my understanding that electricity ratepayers, who are 
also constituents of ours, have paid billions of dollars to 
their electricity bills to have nuclear waste removed from the 
reactors around the country. However, as we all know too well, 
they've got nothing in return.
    On behalf of the ratepayers around the country, can you 
speak to how--exactly how much money they have paid into the 
nuclear waste fund?
    Mr. O'Donnell. Congressman, the estimates that I've been 
given are the corpus of the Nuclear Waste Fund payments and the 
interest that has accumulated over time on those payments into 
the corpus is $40 billion. So it's a lot of money.
    I can tell you, in my home State of Maryland, the 
estimate--and we have State-by-State estimates. The ratepayers 
in Maryland alone have paid $800 million into this fund. And 
that's a very, very significant payment for a small State like 
Maryland with 5 or 6 million citizens. So every State has this 
problem, every State has paid a lot of money, and all of our 
constituents deserve some action for that payment.
    Mr. Comer. Okay. Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you.
    Mr. Raskin indicates he's going to stick with me and bat 
cleanup. So I will now recognize the gentleman from California, 
Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chair and Acting Ranking Member 
Raskin.
    We all know nuclear waste is a serious health hazard. It 
threatens the health and safety of Americans from 329 
congressional districts across 44 States and the District of 
Columbia. But we haven't come up with an effective plan for 
what to do with this waste for decades.
    As it stands right now, most of our nuclear waste is stored 
at facilities ill-equipped to do the job. Nowhere is this truer 
than at the San Onofre Nuclear Generating Station in southern 
California where 3.5 million pounds of nuclear waste sit atop 
of a fault line next to the Pacific Ocean. Our inability to 
find an effective repository for our nuclear waste is a 
shortcoming that we can no longer ignore. Waiting for a nuclear 
waste crisis is a recipe for disaster, and I'm glad that this 
subcommittee is here today to explore this issue further.
    I believe that safety needs to be the top priority in 
selecting a permanent site for our nuclear waste. This might 
sound obvious to some, but our plan in southern California for 
the better part of the last 50 years has been to store nuclear 
waste in an area known for earthquakes, and that's just not 
very smart.
    As someone who grew up in southern California, in 
Riverside, and actually would go surfing in the San Onofre 
State--or tried to go surfing in the San Onofre State beach, 
I'm well aware that most people are just concerned about the 
safety of the facilities and what to do with the nuclear fuel 
once the facilities are no longer generating electricity.
    So this question would--goes to Dr. Lyman. Can you briefly 
describe some of the safety hazards involved with the storage 
of nuclear waste for the shortterm and the longterm?
    Mr. Lyman. Yes, Congressman. Thank you for your question. 
At reactor sites, spent nuclear fuel is stored in two main 
ways. One, in the water-filled pools where it's put immediately 
after discharge from the reactor, and also in what are called 
dry storage casks, which are smaller structures which house a 
smaller amount of spent fuel and do not require water or--for 
cooling. And typically, spent fuel can be moved from the pools 
to the dry casks after a period of about 5 years once the decay 
heat is decreased so that can be done safely.
    So both of those pose problems but in different ways. So 
the spent fuel pools are overcrowded in this country. The 
Nuclear Regulatory Commission allows them to densely pack the 
fuel. And as a result, those pools are vulnerable in the event 
of an earthquake or a terrorist attack that could cause the 
water to drain out rapidly, leading to a large-scale fire in 
the pool and a large release of radioactive material. 
Colleagues of mine have done calculations that showed an event 
like that in the United States could affect millions of people 
hundreds of miles away from the reactor for a very long time.
    So the first thing that needs to be done is a policy to 
reduce the--store the density of spent fuel in the pools. And 
that can be done onsite by increasing the amount of dry cask 
storage at reactors.
    Now, dry cask storage is safer because--for a number of 
reasons, but it's not completely invulnerable. And there are a 
number of ways where the NRC could take action to increase the 
safety and security, especially at sites that are more 
vulnerable than others, let's say on the San Onofre. But it's a 
more manageable problem. And so I do believe that there is some 
time, if those issues are addressed, to store spent fuel and 
dry cask safely at reactors until a better national solution is 
come up with. Thank you.
    Mr. Gomez. Thank you, Mr. Lyman.
    This is a question for Dr. Victor. Is it fair to say that 
one of the major concerns of members of the San Onofre 
community have about this nuclear waste remaining onsite is 
safety? And what are some of the concerns of the--what are some 
of the specific concerns about keeping it there?
    Mr. Victor. Thank you very much, Representative Gomez. I'd 
agree with what Dr. Lyman said here. We--there's a range of 
views about the concerns on the onsite storage of spent nuclear 
fuel. There are some people, a minority, and I think not well 
informed, that think the dry cask systems are not safe. I think 
all the evidence points to exactly what Dr. Lyman said.
    For the longterm, what people are concerned about is two 
things. One is they're concerned about making sure that there's 
a long-term program for monitoring and--the canisters and their 
integrity. And as long as we're stuck with it there, we want to 
make sure it's being monitored, there are programs in place to 
detect any faults and so on. We've had, at our most recent 
meeting, extensive briefings about this. There's been a lot of 
work in this area. I am encouraged that there's been a lot of 
progress in that area.
    The other concern that people have is less tangible, but I 
think maybe even more important, which is that people are 
seeing the rest of the site being dismantled, and they don't 
understand why it is that the spent fuel is stuck there. And 
they're really angry about that. Because the deal that was made 
was we paid the Federal Government to remove it, and it's not 
being removed. And that's a--that's a palpable anger and 
sentiment in the community.
    Mr. Gomez. Mr. Victor, Mr. Lyman, thank you for your 
testimony. I'm out of time, so I yield back.
    Mr. Farenthold. Thank you, Mr. Gomez.
    I see Mr. Issa from California has arrived. Without 
objection--Mr. Issa is a member of the full committee--will be 
authorized to participate in this subcommittee hearing. Without 
objection, so ordered.
    Up next is a gentleman from--Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    I want to go back to some questions that Mr. Comer brought 
up about the amount of money that is being spent. I have a 
document here on the cost of an actual nuclear waste 
management--I'd like to have entered into the official record, 
if I may, Mr. Chairman--that shows that since 2009, the Federal 
Government's liabilities have escalated from $12 billion to 
over $30 billion.
    Mr. Farenthold. Without objection.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Tubb, the Federal Government has spent more than $6 
billion on settlements to utilities for the failure to collect 
nuclear waste, and this amount grows every year. Additionally, 
the DOE estimates that future liabilities will exceed $25 
billion.
    What would it cost to make Yucca Mountain operational so 
that the taxpayers are not continuing to be on the hook for 
these settlements?
    Ms. Tubb. The DOE last gave a lifetime--life cycle cost 
estimate in 2008. In 2017 numbers, I think that estimates up to 
$97 billion over 125 years.
    Mr. Palmer. I'd like to point out, as we're operating in a 
deficit, that's money we have to borrow.
    Can you give us some idea of the way that CBO treats money 
that was paid to the Nuclear Waste Fund?
    Ms. Tubb. Sure. CBO, unfortunately, doesn't do Congress 
many favors with the Nuclear Waste Fund. Money comes in as 
mandatory receipts. And so the fund offsets mandatory spending. 
It goes out as discretionary appropriations, and so the Nuclear 
Waste Fund has to compete with other congressional priorities. 
And so each of these baskets of money is treated under 
different budgeting rules. It makes it very difficult to either 
reform the Nuclear Waste Fund, which is the principal mechanism 
for moving forward with Yucca Mountain or any other plan, and 
it also makes it very difficult to actually spend money for 
Yucca Mountain or any other plan.
    I would also add that when DOE spends money to reduce that 
taxpayer liability, CBO does not recognize that taxpayer 
savings. And so, again, when DOE spends money, it can't offset 
that in savings to taxpayer liability.
    Mr. Palmer. So basically, what we're doing is spending the 
fees that have been collected on other projects.
    Ms. Tubb. Correct. So the Nuclear Waste Fund is funded by 
ratepayers and utilities. There's no taxpayer contribution to 
the Nuclear Waste Fund, and yet the Nuclear Waste Fund has to 
compete with taxpayer priorities based on these budget rules.
    Mr. Palmer. So to make the taxpayer whole in respect to the 
Nuclear Waste Fund, Congress, at some point, will have to 
appropriate money to make it up, or does the tax--does that--do 
we just leave that money off the table?
    Ms. Tubb. The only way the taxpayer is liable is for paying 
the Department of Energy's legal fees. So as far as providing 
for the nuclear waste management services, that's all on 
ratepayers and utilities, as it should be, and as according to 
the Nuclear Waste Policy Act. Taxpayers are on the hook for 
DOE's delinquency and being found in courts.
    Mr. Palmer. Let me change directions a little bit here and 
continue with you. The Department of Energy's license 
application for Yucca Mountain has languished at the Nuclear 
Regulatory Commission since 2008. What are the barriers that 
are holding this up?
    Ms. Tubb. Principally, it's politics. It's no secret that 
the Obama administration was not supportive of Yucca Mountain. 
And a lot of it has to do with former Senator Harry Reid. I 
would also say that, you know, there are scientific technical 
contentions, many of which are offered up by the State of 
Nevada. And as mentioned, I think we need to move forward with 
those and air those, you know, as the law requires. And if 
there are problems with Yucca Mountain, that needs to be known. 
And that's part of completing the Yucca Mountain licensing 
process.
    Mr. Palmer. Just less than a half a minute left.
    How long would it take for Yucca to become operational if 
the license were approved?
    Ms. Tubb. Not being an engineer, I don't have a good answer 
on that, so I'll have to pass.
    Mr. Palmer. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Farenthold. Thank you very much.
    I've just been informed that votes will be scheduled around 
3:15. We're going to see how far we can get and then determine 
what we're going to do at that time.
    I'll now recognize Mr. Clay for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman and Ranking Member Raskin 
and other members, for extending me the opportunity to join you 
this afternoon on a matter of great urgency to our Nation and 
also to the region that I represent in St. Louis: The safe 
disposal of nuclear waste.
    And some might wonder why I am cosponsoring this bill to 
finally establish a national nuclear waste repository at Yucca 
Mountain, and the answer is simple: The U.S. Government created 
a nuclear waste problem 75 years ago, and we have a 
responsibility to finally clean it up. And that long story 
began in my congressional district.
    In 1942, the water department secretly contracted with 
Mallinckrodt Chemical in St. Louis to enrich yellowcake uranium 
from the Belgian Congo to fuel the Manhattan Project. That 
enriched uranium was used to fuel our Nation's first atomic 
bombs created in Los Alamos, New Mexico, in the Met program, 
which existed from 1942 to 1945 was essential to winning World 
War II. But the nuclear waste that was generated from the 
manufacturing of those original atomic bomb and others that 
would follow forged a curse of radioactive contamination that 
is still inflicting pain and suffering across this country. And 
the waste from our Nation's nuclear power plants has compounded 
this problem.
    In Missouri, several failed attempts to clean up the 
original nuclear waste caused dangerous radioactive 
contamination at sites in downtown St. Louis; at Lambert St. 
Louis International Airport; at Latty Avenue in North St. Louis 
County; at Coldwater Creek, which is a tributary that flows 
into the Mississippi River. And finally, in 1973, approximately 
50,000 tons of that same nuclear waste was illegally dumped at 
West Lake Landfill in Bridgeton, Missouri, and mixed with other 
debris. That nuclear waste includes radioactive uranium, 
radioactive thorium, radioactive barium sulfate, and other 
toxic contaminates.
    Unbelievably, that radioactive toxic mess dumped illegally 
at West Lake 44 years ago is held in an unlined limestone 
landfill near the Missouri River, near a major hospital, near 
Lambert St. Louis Airport, near schools and interstate 
highways. And most troubling of all is the appalling fact that 
1,000 of my constituents live less than 1 mile away from this 
illegal nuclear waste dump. And it would be almost impossible 
to find a dumber, more dangerous, more completely irresponsible 
place to dump nuclear waste than West Lake Landfill. And if you 
think this potential environmental disaster couldn't get any 
worse, you're wrong.
    For the last 5 years, we have also been dealing with a 
creeping underground landfill fire at the adjacent Bridgeton 
sanitary landfill, which is owned by Republic Services and is 
under the supervision of the Missouri Department of Natural 
Resources. And that underground fire is less than 1,000 feet 
away from the buried nuclear waste.
    My friends, the U.S. Government created this radioactive 
mess, and we have a clear and unavoidable responsibility to 
finally clean it up. That is what opening up the Yucca Mountain 
registry--repository is all about.
    So let me say this to all of you. When the U.S. Government 
creates a problem, when we put citizens at risk, when we 
disrupt their lives, when we destroy the peace and property 
values of their neighborhoods, and when we allow the health of 
innocent citizens to be harmed because of our own inaction, we 
must make it right. And I was the first Member to ask that all 
of the waste be removed, and I will continue to do that.
    And I see my time is up. But, Mr. Chairman, I mean, I would 
support this bill because I think that the waste needs to be 
removed and put into a safe place, and it's the government's 
responsibility.
    I yield back.
    Mr. Farenthold. Thank you, very much.
    I will now recognize the vice chairman of the subcommittee, 
the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman, for this hearing today.
    Nuclear energy is one of the most reliable and stable 
energy sources in the world, and we should continue to look to 
advance further development in the secure storage of used 
materials. Nuclear power and the subsequent waste that comes 
from spent nuclear fuel is an issue which in my district I am 
very familiar. The Palo Verde nuclear power plant in Maricopa 
County is the largest nuclear generation facility in the United 
States. Palo Verde provides 35 percent of the total energy in 
Arizona, employs over 2,000 full-time workers, and has roughly 
a $1.8 billion economic impact on the State. And while I could 
speak to volumes of the benefits of nuclear power and plants 
across the U.S., the facts remain that temporary storage onsite 
of spent nuclear fuel and high-level radio waste from such 
power plants is a costly and hazardous practice.
    Mr. O'Donnell, first to you. I want you to be very concise. 
Can you give us a breakdown of the incurred cost to the 
consumer since the enactment of the Nuclear Waste Policy Act?
    Mr. O'Donnell. I am a recovering elected official from 
Maryland, so I will try to be as concise as possible, 
Congressman.
    So the five times the consumers have paid just for waste 
storage: The original construction. And then, after original 
construction, the Nuclear Waste Fund. And then, after the 
Nuclear Waste Fund, because we didn't meet our statutory 
deadlines of reracking of the spent fuels that were already 
paid for, number one. So those first three things. And then, 
also, we have paid into the Judgment Fund. And I am missing 
one. But there are five impacts.
    And the fund itself is $40 billion. And the untold billions 
of liability that the consumers have, just it is mind boggling.
    Mr. Gosar. So, Mr. Smith, can you describe for us what you 
believe is the best solution for the long-term storage of 
existing spent nuclear fuel and high-level waste currently 
stored at nuclear facilities around the country.
    Mr. Smith. So I represent mostly defense waste. But 
finishing the licensing process of Yucca Mountain will give us 
a final determination on whether that facility can hold the 
high-level waste and the commercial material that we have. And 
if it doesn't, then we have got to find other alternatives, 
which is what we are discussing today. And that is, you know, 
the classification of high-level waste and changing that so 
that we can reroute some of this waste to other locations 
around the country.
    Mr. Gosar. So we have looked at other areas, have we not, 
Mr. Smith?
    Mr. Smith. We have. We are working with the Department of 
Energy right now to open up opportunities at WIPP for other 
materials that could be classified as transuranic waste as 
opposed to high-level waste, and that is one of the things that 
we are dealing with at this point.
    Mr. Gosar. We looked at a space in Texas, did we not, that 
was deemed geologically unsafe? Is that true?
    Mr. Smith. I'm not sure about the geological----
    Mr. Gosar. The salt domes?
    Mr. Smith. I'm not sure about the geological status of 
that, but they're continuing to look at waste control 
specialists for storing additional wastes at their community.
    Mr. Gosar. Are you aware--where are these other sites?
    Mr. Smith. Yes, sir.
    Mr. Gosar. Okay. So, Ms. Tubb, what would you suggest to 
legislators as the best way forward to ensure the success of a 
long-term nuclear waste depository? What would be the steps, 
and how would you facilitate those? In what order?
    Ms. Tubb. I think the first step is completing Yucca 
Mountain licensing process. Getting an up or down decision on 
that brings a lot of valuable information to the table.
    Assuming the NRC approves Yucca Mountain, I think we need 
to engage the State of Nevada. You could consider a situation 
where DOE essentially contracts with the State of Nevada, 
giving Nevada a lot of control over that situation for existing 
waste. I think we need to look and reimagine how we treat 
future waste. As I talked about, creating market incentives and 
giving the nuclear waste industry--I am sorry--the nuclear 
industry a say in how they manage nuclear waste. So a system 
for existing waste, a system for future waste.
    Mr. Gosar. Would you agree with that, Mr. Victor?
    Mr. Victor. Yes. I think the Yucca process should restart. 
We don't know what the outcome of that is going to be. And so I 
think it's really important that we not continue to put all of 
our eggs in one basket. That's why we're so keen on interim 
storage as well.
    Mr. Gosar. Thank you.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Farenthold. Thank you very much.
    We will now recognize Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Dr. Lyman, let me start with you. What do you think are the 
specific dynamics and consequences of climate change today that 
should be informing our short-term and long-term approaches to 
dealing with the nuclear waste storage problem?
    Mr. Lyman. Yes. Thank you, Congressman Raskin.
    UCS is very concerned about the threat of climate change in 
a number of different ways. With regard to nuclear power, 
obviously, the estimates that the NRC has made in the past for 
the vulnerability of nuclear reactor sites and waste sites to 
natural phenomenon, including flooding, has to be revisited. 
And that is true both for operating reactors, and for the waste 
stored there and also for any new waste storage facilities.
    Unfortunately, the process for updating information on 
climate and the ability to look forward and to be anticipatory 
instead of reactive are problems that the NRC has had. So there 
needs to be a greater realization of the uncertainty that is 
created by the potential for increased hazards at nuclear 
reactors and at waste facilities. And that needs to be 
incorporated into the planning. When you're talking about 
nuclear waste, which has a potential hazardous lifetime of 
millions of years, obviously, there is only so much you can do. 
But certainly you do need to address those uncertainties and 
ensure that you have enough safety margin to accommodate a 
potentially significant increase in hazard at those sites.
    Mr. Raskin. Great.
    And similar question for Dr. Victor. The country is reeling 
now from Hurricanes Harvey and Irma and Jose, and people are 
still recovering from Katrina and Sandy. The San Onofre nuclear 
power station is located on the California coast. Are you 
concerned that natural disasters like tsunamis or earthquakes 
could threaten the safety of nuclear waste that's stored at 
that facility?
    Mr. Victor. So, broadly, yes. The disaster matters. So 
there has been a lot of analysis of the different kinds of 
disasters. As a general rule, the tsunami risk there happens to 
be lower. The earthquake risk is high. And that's why the 
system at San Onofre is engineered to withstand a much higher 
seismic event, earthquake, than typical dry cask facilities. 
And I think, over the long term, sea level rise is a really 
significant--and storm surge--is a really significant concern. 
I think everybody has agreed that they want to move it out of--
the safest place for the San Onofre site is in dry cask. And 
the safest, best long-term solution is out of San Onofre, end 
of story.
    Mr. Raskin. Thank you. But I have had several conversations 
with my colleague, Congresswoman Titus from Nevada, who is very 
interested in this question of consent.
    And, Dr. Lyman, let me come back to you. In considering 
long-term alternative solutions to the Yucca Mountain 
possibility, do you believe that we should seek to get approval 
from the local communities and State government wherever a site 
may be located?
    Mr. Lyman. Yes, I think, generally speaking, the concept of 
consent-based siting is a good one. Unfortunately, it's hard to 
fully understand how to implement that.
    And so there certainly needs to be greater recognition of 
State and local concerns. However, that also has to be, as I 
said, in the context of a national solution. So we can do more. 
I don't know what the answer is at this point. But certainly 
there has to be a different process than the one that led to 
the selection of Yucca Mountain where the Nuclear Waste Policy 
Act and its amendments were rigged, essentially, for the rest 
of the country to gang up on Yucca Mountain. So the flaws of 
that process have to be examined and----
    Mr. Raskin. But the Blue Ribbon Commission on the Nuclear 
Future, in 2012, did recommend placing consent-based siting at 
the center of successful planning in going to the future.
    Dr. Victor, back to you. Do you think that we are going to 
be able to successfully resolve this problem if we don't use 
this principle of local consent?
    Mr. Victor. I think the principle of local consent is 
vitally important, you know, with the caveats that Dr. Lyman 
laid out. We need to have a national strategy. We need to set 
this up so that any particular interest can't hold up the 
entire process.
    To me, what's most interesting is we have had in west Texas 
and in eastern New Mexico--especially in eastern New Mexico--a 
tremendous amount of progress on this front. We've had 
representatives from the eastern New Mexico site come visit our 
community engagement panel. There's informed consent about 
opening that site up, and people are ready.
    Mr. Raskin. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Farenthold. Thank you, Mr. Raskin.
    We will now recognize the gentleman from Montana, Mr. 
Gianforte.
    Mr. Gianforte. Thank you, Mr. Chairman.
    And thank you for the panel today for your testimony. This 
is an important issue, and I appreciate your input.
    Ms. Tubb, I had a question for you. What's been the 
practical effect of the last administration's closing the 
Office of Civilian Radioactive Waste Management? And how has 
that impeded the efforts to move forward with the Nuclear Waste 
Policy Act and the will of Congress?
    Ms. Tubb. Well, we certainly lost a lot of time. As I said, 
we're basically back to where we were in 2008 when the 
Department of Energy first submitted its application. It's 
going to take a lot of effort to bring back the Office of 
Civilian Radioactive Waste Management. I think that's very 
doable, having talked with people who were originally involved 
in the license, that people are passionate about this project 
and want to see it move forward. So it's definitely doable. It 
will just take time and money to bring those resources and 
those people back together.
    Mr. Gianforte. And as that office was closed, can you be 
more explicit about what it actually impeded? What did it shut 
down? What has the impact of that been?
    Ms. Tubb. Well, I mean, a lot of people have moved on and 
been replaced within the Department of Energy. That's a lot of 
institutional knowledge around this specific project that's 
very unique that has since been spread across the country, 
spread within DOE. Some of them have even retired. And I think 
a lot of that can be brought back. But that takes effort.
    Mr. Gianforte. Yeah. Okay. And then do we know what the 
previous administration did with the funds that were allocated 
for this office? Did that get returned to the Treasury, or did 
it go someplace else?
    Ms. Tubb. So a lot of it just did not get spent. Department 
of Energy has now roughly $20 million left from the Nuclear 
Waste Fund that was appropriated from Congress. The Obama 
administration just chose not to use that money both in DOE and 
NRC, and that's what some of those court cases were about.
    With OCRWM, a lot of those institutional functions were 
spread within the Office of Nuclear Energy or just atrophied.
    Mr. Gianforte. Okay. Great. And I have no further 
questions.
    I yield back the remainder of my time, Mr. Chairman.
    Mr. Farenthold. Thank you.
    I now recognize the former chairman of the full committee, 
the gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Thank you for including 
me here today.
    As Mr. Victor said, I represented and have represented San 
Onofre for 16-3/4 years. During most of those years, they 
produced between 1100 and 2200 megawatts every day, 24 hours a 
day depending upon whether one or two of the reactors were 
online. And, of course, more than half the time, two reactors 
were online.
    With an ill-fated non-nuclear portion of the plant, that 
being the steam generators, arriving defective, it was 
prematurely shut down. So one thing, Mr. Victor, if you'll 
describe briefly the situation that we deal with because all of 
the spent rods had to be removed, brand new ones, from two 
reactors, unexpectedly and then put into water storage.
    Mr. Victor. Very briefly, essentially, the entire fuel load 
that has ever been in those two reactors, plus unit one 
originally, is still onsite, with a couple of exceptions.
    Mr. Issa. Right. But some are in dry cask.
    Mr. Victor. And some are in dry cask. They are currently 
building a facility to take the rest of the fuel that's in the 
pools and remove it. That process is on track, and as far as I 
can tell will be done by the end of 2019, at which point nearly 
all--not all, but nearly all--those canisters will be ready to 
ship if there is a place to ship them.
    Mr. Issa. So, with the early demise with the plans to build 
an above-ground--and I call it above ground, but it's slightly 
below ground--a holding area a few hundred feet from Interstate 
5, a few hundred feet from San Onofre surfing area, the 
Trestles, and on earthquake fault, we will have 30 years of 
three reactors worth of spent rod sitting in dry cask from more 
or less--and I will use 2020, if you don't mind--for 10,000 
years if we don't find a solution. Is that correct?
    Mr. Victor. That's correct.
    Mr. Issa. And in your estimation, with your expertise and 
your involvement in this--and I'll go to the others also--is 
there any question in your mind that anywhere, anywhere on 
Earth that is dry, not near populated centers, not near 
earthquake faults, even if above ground, would be safer than 
that location in a 10,000-year calculation?
    Mr. Victor. Anywhere, that's a strong standard. I mean, the 
middle of this room is probably not a good idea.
    Mr. Issa. Well, let me take, for example, one that I 
personally witnessed. We did underground testing at Area 51, 
the nuclear test center in Nevada, not Yucca but another place. 
Anyone can Google Earth and see mounds left over from those 
underground tests. That location, is it or is it not safer than 
on an earthquake fault in a populated area on the edge of the 
ocean?
    Mr. Victor. Absolutely. And there's an extraordinary number 
of sites that would be dramatically safer and better for the 
communities than where it is now.
    Mr. Issa. So, as we look at places in which there are 
little or no population for as much as a hundred miles in this 
country, areas that are dry, that have no apparent aquifers, 
including Area 51--and I will also say Yucca, but I use Area 51 
because it already has underground nuclear materials, we have a 
large amount of places that are better--maybe not perfect, but 
better. So my question to each of you is, with the current 
science we have, even Yucca mountain and all proposed, 
currently proposed, interim storage sites, in your opinion, 
aren't every one of them safer than on the edge of the ocean, 
whether in Humboldt Bay, Diablo Canyon, or San Onofre, where we 
have a total of five reactors? Three are offline; two more will 
go offline.
    And I'll start with Ms. Tubb.
    Ms. Tubb. It certainly sounds like that to me. I am not a 
nuclear engineer, but I would say likely.
    Mr. Issa. Doctor?
    Mr. Lyman. Yes. Well, not----
    Mr. Issa. We're not looking for perfect. I'm just asking 
the question of better.
    Mr. Lyman. Yeah. I realize that. It's just--on the record, 
of course, there are aquifers at the Yucca Mountain site. In 
fact, when I went to the----
    Mr. Issa. Is the water as close as it is at San Onofre?
    Mr. Lyman. No. But it's not completely dry. And so it's a 
subtle--you know, there are issues. And, of course, there are 
short-term places where, if you could move all the fuel right 
away, then there would be a lower risk. But you do have to then 
take into account the transportation risk as well. So, you 
know, you really need to look at an integrated program, and 
that's the complication.
    Mr. Issa. Okay. Well, and I'm not trying to cut you off, 
but for everybody there, when I look at a current location 
that's starting in--let's call it January of 2020, we would be 
able to move, by sea, if we chose, without ever going through a 
populated area, all of those dry casks somewhere else. From the 
moment it gets on to a barge, in my estimation, it is safer 
than where it is. Is there anyone that disagrees that there 
aren't a number of places inherently safer, starting in 2020, 
and it would be reckless to leave them in the least safe place 
that one could describe, on an earthquake fault, in a populated 
area, between an interstate and the ocean?
    Mr. Victor?
    Mr. Victor. No. I completely agree. There are a lot of 
places that would be a lot smarter. And, to me, what's striking 
is I can understand why people are concerned about permanent 
repositories and making sure that the science is done properly 
there. And that takes time. But these interim facilities are 
now getting geared up, and I think that's a crucial part of 
this.
    Mr. Issa. Mr. Smith?
    Mr. Smith. So the Santa Ana River site sits on a geological 
fault, and we store thousands of canisters and waste tanks with 
single capability in terms of insulation.
    Mr. Issa. Single wall, the earlier----
    Mr. Smith. Single-wall insulation. And we're now double-
stacking canisters. And while we do what I consider a very safe 
job, as time moves on, you know, that's going to become much 
more problematic to my community. So I certainly think a 
geological repository--and if you have ever been to Yucca 
Mountain, it certainly seems to be the best fit for that 
material.
    Mr. Issa. Mr. O'Donnell.
    Mr. O'Donnell. Thank you, Congressman Issa. I will say 
this. I've been to Yucca Mountain. I've looked at the national 
laboratory experiments. I've witnessed it with my own eyes, and 
I can tell you that every part of my nuclear-trained background 
and mind tells me that, if you can't do it there, you're going 
to have a hard time finding any place to have a deep geological 
repository in this country. You have to be able to do it there, 
and I think we have proven that by the national laboratories.
    Additionally, we need to make sure that we don't allow 
interim solutions--and I'm certainly open to interim storage, 
not onsite but consolidated. But we have to make sure that that 
doesn't become the new bottleneck simply kicked down the road 
for the next generation to solve, because, sir, I have to tell 
you, I honestly believe that we have a moral imperative to 
solve this problem and solve it now. And that begins with both 
short-term solutions and long-term solutions, permanent 
solutions, and a repository.
    Mr. Issa. Thank you.
    Mr. Chairman, if I can close briefly with a short 
statement. In my district, just a few miles from San Onofre, 
for 40 years, we stored a rather controversial gas and 
detergent mixture that was used during the Vietnam war. And 
that was brought in by regular trucks, and it was shipped in 
and out. As the years went by, what we discovered was it was a 
hundred million dollar massive effort to eliminate what was 
basically gasoline. But, unfortunately, over time, 
environmental determinations can change. I fear that if we do 
not find interim storage that give us, you know, consolidated 
areas, that what the taxpayers will find--and this is probably 
the premier committee of taxpayers--is that that estimate, 
which only goes out 95 billion for 125 years of a 10,000-year 
cycle, will prove the following: The fund will be evaporated. 
Taxpayers will pay hundreds of billions of dollars if we do not 
act and act now in a responsible way. I know for an absolute 
certainty the taxpayers are already on the hook at this point 
for tens of billions of dollars over the next century. But this 
is a 10,000-year problem in need of a low-cost, safe solution.
    And I really want to thank you and the ranking member for 
holding this hearing. It's a great first step.
    Mr. Farenthold. Thank you.
    And as we're in the middle of a vote and running out of 
time, though I do have some questions, I'm just going to simply 
state this is a problem that definitely needs to be solved 
sooner not later. I'd like to find a long-term solution because 
I do think there are potential risks in moving the stuff twice. 
But moving it twice is certainly better than leaving it in. As 
we learned even in the district that I represent, a nuclear 
power plant in the path of a hurricane, though thank the Lord 
it performed admirably with zero safety concerns, that may not 
always be the case. So, again, I wish we had time for 
questions, but I don't want to hold you all for 45 minutes just 
to ask you 5 minutes of questions.
    So I'm going to thank the panel for participating, thank 
Mr. Raskin for filling in for Ms. Plaskett, and ask that we all 
do keep Ms. Plaskett and her constituents and all those 
affected by these disasters in our prayers.
    And, with that, without objection, the committee stands 
adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
